APPENDIX INDEX
A-l

February 18, 2021-Federal Circuit 2020-2171
ORDER (SE-0731-01-0261-I-2)

A-2

October 16, 2020- Federal Circuit 2020-2171,
ORDER (SE-0731-01-0261-L-3)

B-l

A-2

A-4

September 27, 2004-MSPB SE-0731-01-0261-I-2 PFR ORDER
97 M.S.P.R. 366

A-6

B-2

April 22, 2002-Initial Decision, SE-0731-01-0261-I-2 ID

A-19

B-3

November 27, 2019-MSPB Clerk Letter

A-23

C-l

May 25, 2011-Aaron Eppy, Free of Information Act Request

A-24

December 27, 2004-Investigative Record Amend

A-27

December 27, 2004-Request for Suitability Determination

A-28

VACATING OPM’s May 16, 2001, Decision (A-36)

C-2

December 27, 2004-DO NOT RELEASE OUTSIDE OF OPM

A-29

May 25, 2011-OPM to USDOL Free of Information Act Request

A-30

August 10, 2011-USDOL Documents

A-31

December 27, 2004-Investigative Record Amend

A-32

December 27, 2004-Request for Suitability Determination

A-33

VACATING OPM’s May 16, 2001, Decision (A-35)

D-l

December 27, 2004-DO NOT RELEASE OUTSIDE OF OPM

A-34

May 16, 2001-Request for Suitability Determination

A-35

VACATED by Kimberly Truckley on December 27, 2004
D-2

May 16, 2001-OPM Suitability Determination Letter

A-36

E

Constitution, Statutes, Regulations

A-39

A-2

APPENDIX A-1
NOTE: This order is nonprecedential.
United States Court of Appeals for the Federal Circuit
HENRY E. GOSSAGE, Petitioner
v.
MERIT SYSTEMS PROTECTION BOARD, Respondent
2020-2171
Petition for review of the Merit Systems Protection Board
in No. SE-0731-01-0261I-2.

PER CURIAM.
ORDER
The court dismisses this petition after consideration of the parties’ responses
to the court’s show cause order. The court received petitions from Henry E. Gossage
identifying: (1) Office of Personnel Management (OPM) Case 01-904-277; and (2) a
November 27, 2019 letter from the Clerk of the Merit Systems Protection Board
regarding SE-0731-01-0261-I-2 and SE-0731-01-0261-I-5 explaining to Mr. Gossage
that he had no further right to review in those matters.
The court does not have jurisdiction over these matters. This court does not
have authority to directly review a decision by OPM. See In re McAfee, 65 F. App’x
292 (Fed. Cir. 2003). Moreover, although this court has jurisdiction to review

A-3

decisions of the Board, see 28 U.S.C. § 1295(a)(9), the Clerk of the Board’s letter is
nothing more than an administrative response to a repetitive request to reconsider
a matter like those that this court has previously informed Mr. Gossage it lacks
jurisdiction to review. See, e.g., Gossage v. Merit Sys. Prot. Bd., No. 2018-1970, slip
op. at 2-3 (Fed. Cir. Oct. 3, 2018) (citing Haines v. Merit Sys. Prot. Bd., 44 F.3d 998,
1000 (Fed. Cir. 1995)). The court notes that this is now the fifth dismissal in four
months of Mr. Gossage’s attempts to dispute or reopen cases associated with SE0731-01-0261-1-2 and SE-0731- 01-0261-1-5. See Gossage v. Off. of Pers. Mgmt., No.
2020- 2178 (Fed. Cir. Oct. 20, 2020); Gossage v. Off. of Pers. Mgmt., No. 2020-2194
(Fed. Cir. Oct. 20, 2020); Gossage v. Off. of Pers. Mgmt., No. 2020-2195 (Fed. Cir.
Oct. 20, 2020); Gossage v. Off. of Pers. Mgmt., No. 2021-1026 (Fed. Cir. Dec. 18,
2020).

Any future filing pertaining to these matters will likely result in a filing
injunction or sanctions.
Accordingly,
IT IS ORDERED THAT:
(1) The petition is dismissed.
(2) All pending motions are denied as moot.
FOR THE COURT
February 18, 2021
Date

/s/ Peter R. Marksteiner

A-4

APPENDIX A-2
NOTE: This order is nonprecedential.
United States Court of Appeals for the Federal Circuit
HENRY E. GOSSAGE, Petitioner
v.
MERIT SYSTEMS PROTECTION BOARD, Respondent
2020-2171
Petition for review of the Merit Systems Protection Board
in No. SE-0731-01-0261I-2.
ON MOTION
PER CURIAM.
ORDER
Henry E. Gossage moves for leave to proceed in forma pauperis. The court
considers its jurisdiction over this case.
On December 27, 2019, the court received petitions from Mr. Gossage
identifying: (1) a November 27, 2019 letter from the Clerk of the Merit Systems
Protection Board regarding SE-0731-01-0261-I-2 and SE-0731-01-0261-I-5
explaining to Mr. Gossage he had no further right to review in those matters; and
(2) OPM Case 01-904-277.

A-5

It does not appear that this court has jurisdiction over these matters.
Although this court has jurisdiction to review decisions of the board, it does not
have authority to directly review a decision by OPM. The Clerk of the Board’s letter
also appears to be nothing more than an administrative response to a repetitive
request to reconsider a matter like those that this Court has previously informed
Mr. Gossage it lacks jurisdiction to review. See Gossage v. Merit Sys. Prot. Bd., No.
2018-1970, slip op. 2-3 (Fed. Cir. Oct. 3, 2018) (citing Haines v. Merit Sys. Prot. Bd.,
44 F.3d 998, 1000 (Fed. Cir. 1995).
Accordingly,
IT IS ORDERED THAT:
(1) The parties are directed to show cause, within 30 days from the date of
filing of this order, why this petition should not be dismissed.
(2) The motion is held in abeyance and the briefing schedule is stayed.
FOR THE COURT
October 16, 2020
Date

Isl Peter R. Marksteiner

A-6

APPENDIX B-l
Merit Systems Protection Board Order
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
97 M.S.P.R. 366
HENRY E. GOSSAGE,
Appellant,
v.
OFFICE OF PERSONNEL MANAGEMENT,
Agency.
DOCKET NUMBER
SE-0731-01-0261-1-2
DATE: September 27, 2004
Paul D. Doumit, Esquire, Olympia, Washington, for the appellant.
Kimya I. Jones, Esquire, Washington, D.C., for the agency.
BEFORE
Neil A. G. McPhie, Acting Chairman
Susanne T. Marshall, Member
Acting Chairman McPhie and Member Marshall both issue separate opinions.
ORDER
This case is before the Board by petition for review of the initial decision
which dismissed the refiled petition for appeal as moot. The two Board members
cannot agree on the disposition of the petition for review. Therefore, the initial
decision now becomes the final decision of the Merit Systems Protection Board in

A-7

this appeal. Title 5 of the Code of Federal Regulations, section 1200.3(b)
(5 C.F.R. § 1200.3(b)). This decision shall not be considered as precedent by the
Board in any other case. 5 C.F.R. § 1200.3(d).

FOR THE BOARD:
Washington, D.C.
Bentley M. Roberts, Jr.
Clerk of the Board

\

A-8

SEPARATE OPINION OF NEIL A. G. MCPHIE
m
Henry E. Gossage v. Office of Personnel Management
MSPB Docket No. SE-0731-01-0261-I-2
TJ11 write separately to express my views that: (1) The agency’s actions did
not render moot the appellant’s appeal of his suitability determination; and (2) the
Board may have jurisdiction over an alleged constructive suitability
determination, and that matter is not barred by collateral estoppel.
^}2 The facts of this case, which are not in dispute, are as follows: The
appellant pleaded guilty in 1992 to charges of rape and incest. After serving
approximately three years in prison, he was released on parole. Initial Appeal
File (IAF), Tab 10, Subtab 2o. He applied for various positions with the Federal
government. Id., Subtab 2u. The Office of Personnel Management (OPM) found
him unsuitable on the basis of an investigation showing his conviction and
falsification of employment documents and false statements in connection with
his application for an Industrial Hygienist position with the Occupational Safety
& Health Administration (OSHA). OPM debarred him from Federal employment
until July 21, 2000. Id., Subtab 2o. The appellant filed an appeal with the Board
of that decision. The administrative judge (AJ) affirmed OPM’s decision, and the
Board denied his petition for review. Gossage v. Office of Personnel
Management, MSPB Docket No. SE-0731-98-0139-1-1 (Initial Decision, June 30,
1998), review denied, 81 M.S.P.R. 651 (1998) (Table), review dismissed, 215
F.3d 1340 (Fed. Cir. 1999) (Table); IAF, Tab 10, Subtab 2o.
^[3 When the period of debarment expired, the appellant, who is preference eligible,

A-9

again applied for an Industrial Hygienist position with OSHA. His name was at the
top of a certificate of 91igible, along with two other candidates, both of whom
withdrew their applications. OSHA requested authority from OPM to pass over his
application. IAF, Tab 10, Subtab 2o. OSHA also notified the appellant that it
intended to object to him on the basis of suitability for the position, specifically his
incarceration between 1992 and 1995. Id. On November 30, 2000, OPM issued a
written decision granting OSHA’s request to pass over the appellant. OPM informed
him that it would conduct an investigation as to his suitability. Id., Subtab 21. After
notifying the appellant that it proposed to find him unsuitable and affording him an
opportunity to respond, OPM issued a determination on May 16, 2001, rating the
appellant ineligible for the Industrial Hygienist position with OSHA, canceling any
eligibilities he had obtained from this application or other pending applications, and
debarring him until May 16, 2003. The determination was based on his criminal
conviction and resulting penalties and the falsification and false statement made in
connection with his applications in 1996 and 1997. Id., Subtabs 2a, 2b, 2d.
^|4 The appellant filed an appeal of OPM’s May 16, 2001 decision finding him
unsuitable for Federal employment and debarring him for two years. IAF, Tabs
1, 2. OPM filed a motion to dismiss the appeal as moot based on its withdrawal
of the May 16, 2001 negative suitability and debarment determination. Refiled
IAF, Tab 6. The appellant objected to the dismissal of his appeal. Id., Tabs 7, 9.
Without affording the appellant the hearing he requested, the AJ issued an initial
decision dismissing the appeal. He found that the appeal had been rendered moot

A-10

by OPM’s withdrawal of its negative suitability determination and debarment and
by the collateral estoppel effect of the Board’s earlier decision regarding the same
charge of criminal conduct. Refiled IAF, Tab 12.
The appellant’s appeal of the May 16. 2001. suitability determination is not
moot.
5 The Board’s jurisdiction is not plenary; it is limited to those matters over which
it has been given jurisdiction by law, rule, or regulation. Maddox v. Merit Systems
Protection Board, 759 F.2d 9, 10 (Fed. Cir. 1985). Ordinarily, the Board lacks
jurisdiction over an appeal of a nonselection for a vacant position. Metzenbaum v.
General Services Administration, 83 M.S.P.R. 243, ^ 4 (1999). The Board has
jurisdiction over appeals of negative suitability determinations, however, under 5
C.F.R. §§ 731.1-3(d) and 731.501.
1J6 The Board’s jurisdiction attaches at the time an appeal is filed and is generally
unaffected by the parties’ subsequent action. The agency’s unilateral modification of
an appealable action after an appeal has been filed cannot divest the Board of
jurisdiction, unless the appellant consents to such divestiture, or the agency
completely rescinds the action being appealed. Thus, the Board may dismiss an
appeal as moot if the appealable action has been completely rescinded, i.e., the
employee must be returned to the status quo ante and not left in a worse position
because of the cancellation than he would have been if the matter had been
adjudicated. Gillespie v. Department of Defense, 90 M.S.P.R. 327,1 7 (2001).

A-ll

*(17 Nevertheless, when an appellant has outstanding, viable claims for
compensatory damages before the Board, the agency’s complete rescission of the
action appealed does not afford him all of the relief available before the Board
and therefore does not render the appeal moot. Currier v. U.S. Postal Service, 72
M.S.P.R. 191, 197 (1996). Here, the appellant raised claims of discrimination based
on race, age, and disability. IAF, Tab 2. The AJ failed to inform him of his burden of
proof on the discrimination issues or any necessity to raise a claim for compensatory
damages to avoid dismissal of the appeal as moot. Based on that failure, I would
remand this appeal to the AJ for adjudication of the appellant’s discrimination
claims. See Botello v. Department of Justice, 76 M.S.P.R. 117, 124 (1997) (the Board
ordered the AJ on remand to adjudicate the appellant’s claims of reprisal for filing
equal employment opportunity complaints, if he found that the action appealed was
a negative suitability determination within the Board’s jurisdiction); Vannoy v.
Office of Personnel Management, 75 M.S.P.R. 170, 175-77 (1997) (the AJ erred in
failing to apprise the appellant of his burden of proof and the elements of proof on
his disability discrimination claim, but the error did not harm his substantive rights
because he was not a qualified disabled individual). I would instruct the AJ to notify
the appellant of his burden of proof and the elements of such discrimination claims,
and to afford him an opportunity to engage in discovery relevant to his
discrimination claims and to raise a claim for compensatory damages. I would also
instruct the AJ to convene a hearing, if the appellant expressed his desire for one.

A-12

The Board may have jurisdiction over the alleged constructive negative
suitability determination and the matter is not barred by collateral
estoppel.
Tf8 The appellant argues that, despite OPM’s withdrawal of the May 16, 2001
negative suitability determination, the appeal is not moot because the continued
existence of the authority for OSHA to pass over his application constitutes a
constructive negative suitability determination governed by the holding in
Edwards v. Department of Justice, 86 M.S.P.R. 365,5-14 (2000). In that case,
the Board found that, under certain circumstances, a sustained objection to
consideration of an applicant could constitute a negative suitability determination.
T[9 In this case, the AJ found that, even if the approval of OSHA’s request to pass
over the appellant were a constructive negative suitability determination, the
appellant was collaterally estopped from making that argument because the only
issue within the Board’s authority to review under OPM’s revised regulation had
already been adjudicated. Initial Decision at 2-3.1 disagree.
flO Under OPM’s regulation at 5 C.F.R. § 731.501, which is the source of the
Board’s jurisdiction over appeals of negative suitability determinations and
which, effective January 29, 2001, revised OPM’s previous regulation,
[a]n individual who has been found unsuitable for employment may appeal the
determination to [the Board]. If the Board finds one or more charges are supported
by a preponderance of the evidence, it shall affirm the determination. If the Board
sustains fewer than all the charges, the Board shall remand the case to OPM or the

A-13

agency to determine whether the action taken is still appropriate based on the
sustained charge(s). This determination of whether the action taken is appropriate
shall be final without any further appeal to the Board. 5 C.F.R. § 731.501 (2003).
The AJ interpreted this regulation to mean that the Board’s review of a negative
suitability determination is limited to the substance of the conduct on which the
negative suitability determination is based. The AJ found that the conduct
underlying this alleged constructive negative suitability determination was
previously adjudicated in the earlier appeal in which it was found that the
appellant engaged in the criminal conduct and that the conduct supported a
negative suitability determination. Based on his interpretation of OPM’s revised
regulation, the AJ in this case gave collateral estoppel effect to that earlier finding.
Tfll OPM’s regulations at 5 C.F.R. part 731 do not define “charge,” and the Board
has not yet interpreted OPM’s revised regulation. “Charge” is susceptible of two
meanings. It can mean the factual basis for the negative suitability determination
or the suitability determination itself.
f 12 In the supplementary information in the Federal Register notice regarding
the revised regulation, OPM responded to comments to its proposed regulations,
specifically in regard to Board appeal rights. OPM explained the revised
regulation, stating: Specifically, the regulation is designed to clarify that the
Board’s role in reviewing OPM or agency unsuitability decisions always has been a
limited one. The Board may determine only whether a charge of unsuitability is
sustained by a preponderance of the evidence in accordance with the substantive

A-14

standard set forth in section 731.202. 65 Fed. Reg. 82239, 82242-43 (Dec. 28, 2000).
Based on OPM’s reference to a “charge of unsuitability,” I would find that 5 C.F.R. §
731.501 provides the Board with jurisdiction to review the determination of whether
an individual is suitable for Federal employment. That determination encompasses
the factors set forth at 5 C.F.R. §§ 731.202(a) and (b) as well as the additional
considerations listed at subpart 731.202(c).
U13 Thus, I would find that the AJ judge erred in affording collateral estoppel
effect in this case to the Board’s previous decision affirming the negative
suitability determination in Gossage, MSPB Docket No. SE-0731-98-0139-1-1
(Initial Decision, June 30, 1998). Collateral estoppel, or issue preclusion, is
appropriate when (1) an issue is identical to that involved in the prior action; (2)
the issue was actually litigated in the prior action; (3) the determination on the
issue in the prior action was necessary to the resulting judgment; and (4) the party
precluded was fully represented in the prior action. Kroeger v. U.S. Postal Service,
865 F.2d 235, 239 (Fed. Cir. 1988). Although the instant alleged constructive
negative suitability determination and request to pass over his application were
based on the same criminal conduct, the additional considerations appropriate to a
suitability determination require further review to determine whether the felony
conviction and incarceration continue to warrant a determination of unsuitability.
Among the additional considerations at 5 C.F.R. § 731.2021 are the recency of the
conduct and the absence or presence of rehabilitation or efforts toward
rehabilitation. As these circumstances may have changed between the issuance of

A-15

the first negative suitability determination and this alleged constructive negative
suitability determination, these issues, as they relate to the appellant’s current
suitability for Federal employment, were not previously litigated.
K14 Therefore, I would remand this matter to the AJ for a determination of
whether the request to pass over the appellant is within the Board’s jurisdiction as
a constructive negative suitability determination. If so, then I would instruct the
AJ to decide whether that determination is supported by preponderant evidence,
on the basis of not only the fact of the appellant’s conviction and incarceration
but also the additional considerations at 5 C.F.R. § 731.2021.1 would further
instruct the AJ to adjudicate the appellant’s claims of discrimination as they
relate to the alleged constructive negative suitability determination.
Date

Neil A. G. McPhie
Acting Chairman

A-16

SEPARATE OPINION OF SUSANNE T. MARSHALL
in

Henry E. Gossage v. Office of Personnel Management
MSPB Docket No. SE-0731-01-0261-I-2
115 The administrative judge correctly found that this appeal is moot because all of
the issues previously litigated in this negative suitability determination were the
same as the ones raised in the present appeal and therefore had collateral estoppel
effect. Indeed, the Office of Personnel Management (OPM) cancelled the negative
suitability determination and reinstated the appellant so he could compete for
federal positions, except for the positions for which OPM, acting under proper
authority, previously found the appellant unsuitable.
116 A June 30, 1998 initial decision by the Board’s administrative judge sustained
OPM’s decision that the appellant was unsuitable for federal employment, including
positions as an Industrial Hygienist or a Safety & Occupational Specialist with the
Occupational Safety & Health Administration (OSHA). Gossage v. Office of
Personnel Management, MSPB Docket No. SE-0731-98-0139-I-1 (Initial Decision
June 30, 1998). The administrative judge based his decision on the appellant’s plea
of guilty in state court to four criminal counts — two counts of incest (first degree),
one count of rape (third degree), and one count of attempted incest (first degree). Id.
At 3. The appellant spent ten years in jail on those charges. Petition for Review
File, Tab 1. The June 30, 1998 initial decision also found that the appellant made
false and deceptive statements during his application process for the OSHA jobs
regarding his criminal record. Initial Decision at 4-6. That initial decision became
the Board’s final decision when the Board denied the appellant’s petition for review

A-17

by final order. 81 M.S.P.R. 651 (1998) (Table). The United States Court of Appeals
for the Federal Circuit dismissed the appellant’s request for review of the Board’s
decision in that case. Gossage v. Office of Personnel Management, 215 F.3d 1349
(Fed. Cir. 1999) (Table).
If 17 As thoroughly explained in the administrative judge’s April 22, 2002 initial
decision, OPM’s decision to reinstate the appellant for consideration for federal
employment moots out the appeal. Gossage v. Office of Personnel Management,
MSPB Docket No. SE-0731-01-0261-I-2, Initial Decision at 2 (April 22, 2002). What
OPM did here was simply keep in place the appellant’s disqualification for the
OSHA positions for which he was previously found unsuitable — the Industrial
Hygienist and Safety & Occupational Specialist positions. Id. At 1-2. That was a
decision which the Board sustained in its final decision in the 1998 initial decision,
and which was not overturned by the Federal Circuit. The administrative judge
properly concluded that OPM’s decisions on the OSHA positions, which were fully
decided in a final 1998 Board decision, collaterally estopped the appellant from
raising those matters in the instant appeal. Collateral estoppel also precludes the
appellant from raising any discrimination or claims of violations of the Veterans
Employment Opportunities Act of 1998 (VEOA) that he raised or could have raised
in the 1998 appeal. Id. At 2-3; see Kroeger v. U.S. Postal Service, 865 F.2d 235, 239
(Fed. Cir. 1988) (collateral estoppel, or issue preclusion, is appropriate when (1) an
issue is identical to that involved in the prior action, (2) the issue was actually

A-18

litigated in the prior action, (3) the determination on the issue in the prior action
was necessary to the resulting judgment, and (4) the party precluded was fully
represented in the prior action).
K18 In the present appeal, the appellant has merely argued that he is “of Japanese
heritage” and has a “physical disability” of an unspecified nature. Initial Appeal
File, Tab 1. Such bare assertions are insufficient to raise a suitability determination
claim based on a final Board decision in a 1998 appeal. In fact, on petition for
review, the appellant acknowledges that OPM’s actions moot out the appeal except
for the matter of the OSHA positions which were filled many years ago. That case is
long over. Remand under these circumstances serves no purpose. The
administrative judge therefore correctly decided that the prior Board decision has
collateral estoppel effect with regard to the OSHA positions at issue.
II19 The administrative judge’s decision here was neither arbitrary, capricious, nor
an abuse of discretion, and it comported with Board procedures. See United States
Postal Service v. Gregory, 534 U.S. 1, 6-7, 122 S. Ct. 431, 434 (2001). Absolutely no
reason exists to disturb it. The appellant’s petition for review should therefore
denied.
Date

Susanne T. Marshall
Member

A-19

APPENDIX B-2
Administrative Law Judge Decision
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
HENRY E. GOSSAGE, Appellant,
v.
OFFICE OF PERSONNEL MANAGEMENT, Agency.
DOCKET NUMBER: SE-0731-01-0261-1-2
DATE: April 22, 2002
Paul D. Doumit, Esquire, Olympia, Washington, for the appellant.
Kimya I. Jones, Esquire, Washington, D.C., for the agency.
BEFORE
James H. Freet, Administrative Judge
INITIAL DECISION
By appeal refiled October 12, 2001, the appellant has challenged a May 16,
2001, suitability decision by the Office of Personnel management (OPM). For the
reasons discussed below, the appeal is DISMISSED.
In its suitability decision, OPM found the appellant unsuitable for Federal
employment. It cancelled all eligibilities for employment which the appellant might
currently have and debarred him from competition for, or appointment to, any
position in the competitive Federal service for a period of 2 years. See OPM
File,Tab 21. In that decision, OPM also rated ineligible a particular application for
the position of Industrial Hygienist which the appellant has filed with the

A-20

Occupational Safety & Health Administration (OSHA). See Id. OSHA had requested
that the appellant be removed from consideration because his prior conviction and
incarceration for a felony would interfere with his ability represent OSHA as an
expert witness in court. Such court appearances are expected of OSHA’s compliance
officers. See OPM file, Tab2b (OPM Form86A). An agency may make such objection
to a particular candidate; OPM has authority to grant the objection by disqualifying
the candidate for particular positions. See 5 CFR § 332.406 (2001).
By Motion filed January 16, 2002, OPM stated that it was thereby
reinstating the appellant’s eligibility for competitive registers and withdrawing its
debarment of him from competition for, appointment to federal positions. OPM
stated, however, that its action did not change its decision to grant OSHA’s request
for permission to disqualify the appellant for the Industrial Hygienist position.
OPM moved that the appeal be dismissed as moot. The appellant has objected
to that motion. See Appellant’s Submission of January 24 and March 8, 2002. For
the reasons discussed below, OPM’s motion is GRANTED.
It is clear that OPM’s action moots the portions of its May 16, 2001,
suitability decision which concerned the general cancellation of eligibilities for
employment and the general 2-year debarment. The appellant has received full
relief on these elements of his appeal.
The remaining question is the reviewability of the OPM permission for OSHA
to disqualify the appellant for the industrial hygienist position. Such actions by
OPM are not necessarily appealable to the Board. Depending on the true nature of

A-21

the grounds for an agency’s request for disqualification, OPM’s approval may be
either a non-appealable non-selection decision or an appealable constructive
suitability decision. See Edwards u. Department of Justice, 87 M.S.P.R. 518, 522-23
(2001).
Even if it is assumed that OPM’s permission to OSHA to disqualify the
appellant is a constructive suitability determination, there is no issue for the Board
to resolve in this particular appeal. OSHA’s disqualification request was based on
the appellant’s felony conviction in 1992 and his resulting incarceration. The issue
of the appellant’s felony conviction and incarceration is barred from further
consideration by the board by the doctrine of collateral estoppel. Collateral estoppel,
or issue preclusion, is appropriate when (1) an issue is identical to that involved in
the prior action, (2) the issue was actually litigated in the prior action, (3) the
determination on the issue in the prior action was necessary to the resulting
judgment, and (4) the party precluded was fully represented in the prior action. See
Kroeger v. U.S. Postal Service, 865 F.2d 235, 239 (Fed. Cir. 1988); Jay v. Department
of Navy, 90 M.S.P.R. 635, 641 (2001). The same conviction and incarceration which
is the basis for OSHA’s request for permission to disqualify the appellant was an
element in a prior appeal to this Board concerning as earlier suitability decision by
OPM which covered the period ending July 21, 2000. See Gossage v. Office of
Personnel Management, MSPB Docket SE-0731-98-0139-I-1 (Initial Decision, June
30, 1998), petition for review denied, 81 M.S.P.R. 651 (1998) (Table), review

A-22

dismissed, 215 F.3d 1340 (Fed. Cir. 1999) (Table). The appellant was found to have
engaged in this criminal conduct. See Gossage, slip. At 3-4.
Since the charge concerning the appellant’s conviction and incarceration has
been established by collateral estoppel, no issue remains for the adjudication by the
Board. Having found the charge to be factually accurate, the board is precluded by
regulation from considering whether the charge warrants the suitability
determination made by OPM. See 5 C.F.R. § 731.501(a) (Jan. 29, 2001) (“If the
Board find that one or more charges are supported by preponderance of the
evidence, it shall affirm the [suitability] determination.”).
In summary, the issues of OPM’s general cancellation of eligibilities and
general debarment from future consideration are mooted by OPM’s reinstatement
decisions and the issue of OSHA’s request to disqualify the appellant is mooted by
collateral estoppel. Therefore, there is no matter for adjudication by the Board.
DECISION
The appeal is DISMISSED.1
FOR THE BOARD
James H. Freet
Administrative Judge

The appellant has raised the issue of attorney fees. The matter is premature.
See 5 CFR § 1201.203(d) (time of filing of attorney dee motions).
i

A-23

APPENDIX B-3

W.S. MEROT:$V&TEMS PIWT^CnON board
mnmum, «s. ss«if

m*

Ms Henry E &siagfc

Re: :. Matey £ (hsta&t#, SJkg; ifPmonmi
■ MSPI1 Docket Wo, SB4II3 MM2SM-S

this is IM jtsgom to ytmt 'Novaipte IS, 2®l 9 contspciintexig to the ®ff«® Of tit®
efiihe Bsrf sttl ytMf Mwatia 25,3Hn$ fm «i?r«spfltee# to the Bbfrt’s:
W«a«£i Reganal Offisa, Time mtimmdwss hmv iteert
is « -reqw«t::fer
»wo««ersioi ofshe BoitCs ffldfftfst«l MmM24jm, wife spm# named ifewE '
As scf ferth in the km* *m m ym fey ffcis effiee oa August X mi, JMwajr 1&
2«$,ista April 23,2ft)*, feeSeenfs Mar# H20Q».order lbch*M*^^ecife:st««a»t;flmt ft represents the fitssi deessiaa offer Been! In'fett appeal suri afeo:»»t}(ied-you of
p«r fiafter twjew rights, Tte Besrf* ttsnWoiw dowx |?twMe ter your reqswst. fot:
feconiieratkfirdf fee Board's final dictsiom 'ISere is, therefets, no fatSier rtgfa ft?
review of that appsi by .fee Board,. Ifc B«wi wUfaet respond ® twite- *«pwas fe
reeatsfafarfejs sttsncr,

■m

StijW ei»

■

wMspal wish MBWnftliMiKi* Regim! Office I*
Jfe;ma?3t-bMB«-£S, ■ WMfc
fmr.ffamnim 1% 2itf i«reqwM«s* tefett »SE473MI}4i3«i4-a, fife nutter w «*«jqv«ty
W ft* Baud twltfe 1XS. Ojurt af.Apsft* :fi» Hi* ftimi Cimm mi. hfctnadL
■ s$*stfi«3fe « «js»a.»im:w SftSPB
* ■•".....
-....................................................
«^tfti?js!aa«*|5!%e
fesewi m MM ftecMa* 4hwl«iMtywr
■apjs^J * S*4?B:t4SWB«.t.ii
.On-Stmmxf,
. ;. ,<J».
SlfRMMt J», WOO. M ptiftM ft* wviw, ft* Scant tm*ft *
feifc m m-mnst-em'........................
MiMWa4ia*« 4h* ste MM *M«t tawsp tm Sim MMott ■*f tie
,8twfc» rises Start mntbm ■emtW.jm *$*« «»MftSswsStSw, Ycmmoferf year ftinisx * _
nstfcwly.'fflMi * fKjtiaa Ox nde*.Cmt tfAppMfc *» M Peiw*l Ctews,
*
H* Cowt!»:
Cknrt’s1 Jasassr
Jmsmf A
25,2WS
tktsaim nmiMit^ <w
M MW
:mm» » M ^iaaa,
Umi, •gmxgfei
ptw.^spsf m% MM
m
gm MM.'tMMt
w#itw #f]isai«I»me3t4t42«4l
I»me3t4t42«i4l*ti
.1* S£4ai4l«G2St«M,
S£4ai4l«G2St«M,sal
SjsfS8,e?5M»2«144ivat
S8.e?5M»2«l3# S,
30@r« MS^B si»tsiis»ft<» JssSge' teed
«A»r «f. ttenfltatWinil
WM^ffis'pinfff.

fe SSURi-BwjaSM-S, s*!rra«g:-Sts
6*4ftreSsie, ilitS, «s p«sii»t te-tkiftw, M M
........

Additional material
from this filing is
available in the
Clerk's Office.

